     Department of Homeland Security





            FEMA Should Recover $3.5 Million of Public 

              Assistance Grant Funds Awarded to the 

           City of Gautier, Mississippi - Hurricane Katrina





DA-13-17                                                 June 2013

                                OF.FleE OF INSPECTOR GENERAL
                                      l>epartment of Homeland S""""tily




                                                   JUN       7 2D13


MEMORANDUM FOR:                       Major P. (Phil) M ay
                                      Regional Administrator, Region IV
                                      Feder~1 Emer       y              gency

FROM:




SUBJECT:                              FfMA Should Rewver $3.5 Million of Public Assistance
                                      Grant Fund5 Awarded to the City of Goutier, Mississippi-
                                      Hurricane Katrina
                                     FEMA Disaster Number 1&04-DR·MS
                                     Audit Report Number DA-13-17

We audited Public Assistance funds awarded to the City of Gautier, Mississippi (City)
(FIPS Code 059-2&8&0-00). Our audit objective was to determine whether the City
accounted for and expended Feder~1 Emergency Management Agency (FEMA) funds
according to Federal regulations and FEMA guidelines.

The City received a Public Assistance grant award of $5.3 million from the Mississippi
Emergency Management Agency (State), a FEMA grantee, for damages resulting from
Hurricane Katrina, which occurred in August 2005, The award provided 100 percent
FEMA funding for debris removal activities, emergency protective measures, and
permanent repairs t o buildings and facilities. The award consisted of 9 large projects
and n small projects. '

We audited four large projects with awards totaling $4.6 million (see Exhibit, Schedule
of Projects Audited). The audit covered the period from August 29, 2005, to September
26, 2012, during which the City claimed $3.8 million in FEMA funds for the four projects.
At the time of our audit, the City had not wmpleted work on all projects and, therefore,
had not submitted a final claim to the State for all project expenditures,

We conducted this performance audit between September 2012 and April 2013
pursuant to the Inspector General Act of 1978, as amended, and acwrding to generally


, F!'d..... 1regulation, i~ eff~ct .t the time af Hurricane Katrina , et t~ lar~. project thre. hold . 1$55.500

www.oig,dh •.gov                                                                                    DA-13-17
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objective. To conduct this audit, we applied the statutes,
regulations, and FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed
City, State, and FEMA personnel; reviewed the City’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and
performed other procedures considered necessary under the circumstances to
accomplish our audit objective. We did not assess the adequacy of the City’s internal
controls applicable to its grant activities because it was not necessary to accomplish our
audit objective. However, we gained an understanding of the City’s method of
accounting for disaster-related costs and its policies and procedures for administering
activities provided for under the FEMA award.


                                   RESULTS OF AUDIT

FEMA should recover $3.5 million of grant funds awarded to the City. The City
accounted for FEMA projects on a project-by-project basis as required by Federal
regulations and FEMA guidelines. However, the City did not comply with Federal
procurement requirements when awarding contracts totaling $3,089,557 for
nonemergency and permanent repair work. In addition, the City did not adequately
support and ensure eligibility of claimed costs totaling $372,858.

Finding A: Contracting Procedures

The City did not comply with Federal procurement requirements when awarding
contracts valued at $3,089,557 for nonemergency and permanent repair work. Federal
procurement regulations at 44 CFR 13.36 required the City to, among other things—

   •	 Take all necessary affirmative steps to ensure that minority firms, women’s
      business enterprises, and labor surplus area firms are used, when possible,
      during the procurement process. (44 CFR 13.36(e)(1))

   •	 Conduct all procurement transactions in a manner providing full and open
      competition. Noncompetitive procurement may be used under certain
      circumstances, one of which is when the public exigency or emergency will not
      permit a delay resulting from competitive solicitation. (44 CFR 13.36(c) and 44
      CFR 13.36(d)(4)(i)(B))

www.oig.dhs.gov                               2                                  DA-13-17
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



   •	 Perform a cost or price analysis in connection with every procurement action,
      including contract modifications, to determine the reasonableness of the
      proposed contract price. A cost analysis is required when adequate price
      competition is lacking. (44 CFR 13.36(f)(1))

In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999, p. 39) specifies
that—

   •	 Contracts must be of reasonable cost, generally must be competed, and must
      comply with Federal, State, and local procurement standards.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a
case-by-case basis (44 CFR 13.6(c)).

We question the $3,089,557 claimed for contract work that the City did not procure
according to Federal procurement regulations and FEMA guidelines. The questioned
costs are described in the following bullets:

   •	 The City could not provide evidence that it took affirmative steps to include
      minority firms, women’s business enterprises, and labor surplus area firms in its
      bid process for the permanent repair of sewer lift stations valued at $2,390,700
      (Project 1809). The City hired an engineering firm to oversee the repair of the
      sewer lift stations. According to City officials, the engineering firm advertised
      the work using the City’s procurement policy. However, there was no evidence
      in the procurement files that minority firms, women’s business enterprises, and
      labor surplus area firms were considered in the bid process. Therefore, we
      question the $2,390,700 awarded for the contract work.

   •	 The City did not openly compete contracts valued at $362,772 for nonemergency
      debris removal work and permanent repair work. Full and open competition
      increases the probability of reasonable pricing from the most qualified
      contractors and helps discourage and prevent favoritism, collusion, fraud, waste,
      and abuse.

       Under Project 10004, the City hired a debris removal contractor from a list of
       contractors it had contacted for price quotes approximately 1 month prior to the
       disaster instead of openly competing the work, paying the contractor $163,253
       for the contract work. Although the work was categorized as emergency work
       (category A), the City began work under the project in July 2006, approximately
       10 months after the disaster, giving the City sufficient time to seek competitive
       bids for the work.

www.oig.dhs.gov                             3	                                DA-13-17

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



       Additionally, under Project 1809, the City obtained architectural and engineering
       (A/E) services valued at $199,519 for the permanent repair of sewer lift stations
       from an engineering firm without competing the work. The firm had provided
       engineering services to the City, on occasion, prior to the disaster. We question
       $362,772—$163,253 under Project 10004 and $199,519 under Project 1809—for
       contracts awarded without full and open competition.

   •	 The City did not openly compete or perform a cost/price analysis for debris
      monitoring services under Project 10894 valued at $512,665. Project 10894
      authorized the removal of hazardous dead trees from the City’s rights-of-way
      and private property. City officials hired an A/E firm to monitor the work of the
      debris removal contractor without openly competing the work and without
      performing a cost/price analysis. The City began work under the project in
      November 2006, approximately 14 months after the disaster, giving the City
      sufficient time to seek competitive bids for the debris monitoring services.
      Therefore, we question $512,665 claimed for this contract work. Of the
      $512,665 questioned under this finding, $176,580 is also questioned as
      unsupported costs under finding B. Therefore, the net amount questioned in
      this finding is $336,085.

City officials said they did not bid out the debris monitoring services because State
purchasing laws, of which they abide by, do not require that professional services be
competed. They also said that they believed that a cost or price analysis was not
required because the contracted services were with an engineering firm. However,
Federal regulations require competition for all procurement except under certain
circumstances, one of which is when the public exigency or emergency will not permit a
delay resulting from competitive solicitation. As discussed above, a public exigency or
emergency did not exist to warrant the use of noncompetitive contracts for the
contracts in question. Further, although the City hired an A/E firm for the monitoring
services, this type of work is not professional A/E services. In addition, Federal
regulations require that a cost or price analysis be performed for all procurement
transactions, irrespective of the type of goods or services being procured.

In conclusion, City officials said that they followed the State’s purchasing laws for all
procurement actions. However, a subgrantee’s procurement procedures must also
conform to applicable Federal law and the standards. 44 CFR 13.36(b). We believe that
the State should have done a better job of informing the City of Federal procurement
requirements, and that the State and FEMA should have identified these improper
procurement activities during their monitoring and review process. Accordingly, we
question a total of $3,089,557 for contract work that did not meet Federal procurement
requirements. Table 1 identifies the questioned costs by project and scope of work.

www.oig.dhs.gov                              4	                                 DA-13-17

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

     Table 1. Questioned Costs for Noncompliance with Federal Contracting Procedures

                                                                  Full and
                                                                   Open         Minority/
                                                                Competition     Women/
                                                                    and           Labor         Total
   Project                         Amount      Full and Open    Cost or Price    Surplus      Amount
   Number       Project Scope      Awarded      Competition       Analysis        Firms      Questioned
    1809      Sewer Lift          $2,815,979         $199,519              $0   $2,390,700    $2,590,219
              Stations
              Citywide
    10894     Remove Stand         $804,818               $0       $336,085            $0      $336,085
              Dead Trees
              Along with Right-
              of-Way and on
              Private Property
    10004     Debris Removal        $331,337       $163,253              $0             $0      $163,253
    Total                         $3,952,134       $362,772        $336,085     $2,390,700    $3,089,557


Finding B: Supporting Documentation

The City did not have adequate documentation to support $292,736 of costs claimed
under Projects 796 and 10894. Cost principles at Office of Management and Budget
Circular A-87, Attachment A, Section C.1.j, state that a cost must be adequately
documented to be allowed under a Federal award. We question the $292,736, as
described in the following bullets.

   •	 Force Account Labor. Under Project 796, the City’s claim included $116,156 of
      unsupported overtime pay for finance, public works, and police department
      personnel. The City’s emergency policy states that essential personnel such as
      police, fire, finance, and public works employees who are recalled to work during
      emergency operations would be paid at their normal straight time pay during
      regular workdays. According to the policy, overtime pay for finance and public
      works personnel would be based on the number of hours worked outside of a
      regular workday in accordance with the City’s normal overtime pay policy. The
      policy also states that uniformed police officers are paid overtime for hours
      worked in excess of 168 regular hours in a 28-day work period.

       The City did not maintain adequate documentation to support $71,828 of
       overtime pay claimed for finance and public works personnel. Specifically, the
       City’s records did not indicate (1) employees who were recalled, (2) employees
       who worked outside of their regular hours, and (3) the types of disaster-related
       activities that employees performed. Therefore, we question the $71,828
       because we could not validate that the charges were eligible. According to City
       officials, they were unaware of the requirement to maintain documentation to
       support the activities performed by workers during disaster operations.


www.oig.dhs.gov                                     5	                                        DA-13-17

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

       Also, the City’s claim of $59,490 for overtime pay of uniformed police officers
       who performed disaster-related work was overstated by $44,328 because the
       City did not comply with its emergency overtime policy when calculating the
       officers’ pay. The City’s emergency overtime policy states that police officers
       would be paid overtime for hours worked in excess of 168 regular hours during a
       28 consecutive day work period. However, the City paid the officers overtime
       after working 84 hours during a 14-day work period. Therefore, we question the
       $44,328.

   •	 Debris Removal Monitoring. Under Project 10894, the City’s claim included
      $176,580 of contract labor charges for debris removal monitors that were not
      adequately supported by load tickets. The contractor billed the City $331,205
      for debris monitor labor hours. However, $176,580 of the costs included labor
      hours billed for days in which the monitors did not issue load tickets and days in
      which labor hours were charged for monitors whose names did not appear on
      load tickets. Therefore, we question the $176,580.

Finding C: Ineligible Project Costs

The City’s claim under Project 796 included $80,122 of costs that were ineligible and
outside the project’s authorized scope of work. Project 796 authorized the
reimbursement of costs associated with the City’s police, fire, administrative, and public
works employees engaged in disaster-related emergency protective measures.
However, the City’s claim under the project included $80,122 of charges for items such
as computer network contract charges; equipment rental and repair costs incurred prior
to the disaster; office supplies; Red Cross supplies; and gas purchases for vehicles whose
costs had already been reimbursed under the FEMA Schedule of Equipment Rates,
which contains a fuel allowance. Cost principles at Office of Management and Budget
Circular A-87, Attachment A, Section C.1.a, state that a cost must be necessary and
reasonable for proper and efficient performance and administration of Federal awards.
Therefore, we question the $80,122.


                                 RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $3,089,557 of ineligible costs claimed for contracts that
were not procured in accordance with Federal requirements, unless FEMA decides to
grant an exception for all or part of the costs as provided for in 44 CFR 13.6(c) and
Section 705(c) of the Robert T Stafford Disaster Relief and Emergency Assistance Act, as
amended (finding A).

www.oig.dhs.gov                              6	                                 DA-13-17

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



Recommendation #2: Instruct the State to remind subgrantees of their requirement to
comply with Federal procurement regulations and FEMA guidelines when acquiring
goods and services under the FEMA award (finding A).

Recommendation #3: Disallow $292,736 of unsupported contract costs under Projects
796 ($116,156) and 10894 ($176,580), unless the City provides additional evidence to
show that the costs are supported (finding B).

Recommendation #4: Disallow $80,122 of ineligible project costs for unauthorized work
under Project 796 unless the City provides additional evidence to show the costs are
eligible (finding C).

Recommendation #5: Reemphasize to State and FEMA Region IV Public Assistance
personnel the need to adequately review costs claimed by subgrantees for adherence to
Federal regulations and FEMA guidelines (findings B and C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with the City, State, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at
the exit conference held on April 3, 2013. City officials said that they would withhold
their comments on the findings and recommendations until the final report is issued.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are David Kimble, Eastern Region Audit Director;
Larry Arnold, Audit Manager; Alicia Lewis, Auditor-in-charge; and Sean Forney and
Katrina Griffin, Auditors.



www.oig.dhs.gov                              7                                  DA-13-17

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Please call me with any questions at (202) 254-4100, or your staff may contact David
Kimble, Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                             8                                 DA-13-17

                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

                                                                                                 Exhibit

                                  Schedule of Projects Audited 

                              August 29, 2005, to September 26, 2012 

                                    City of Gautier, Mississippi 

                               FEMA Disaster Number 1604-DR-MS 




Project                                                  Amount        Amount       Amount
Number    Category           Project Scope               Awarded       Claimed     Questioned      Finding
  796        B       Emergency Protective                 $662,743      $409,786     $116,156         B
                     Measures Citywide                                                 $80,122        C
1809         F       Sewage Lift Stations Citywide       $2,815,979   $2,273,388    $2,590,219        A
10894        A       Remove Stand Dead Trees              $804,818     $804,818      $336,085         A
                     Along with Right-of-Way and                                     $176,580         B
                     on Private Property
10004        A       Debris Removal                        $331,337     $331,337      $163,253       A
Totals                                                   $4,614,877   $3,819,329    $3,462,415




  www.oig.dhs.gov                                    9                                      DA-13-17

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

                                                                        Appendix


                                 Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Acting Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-12-057)

State
Executive Director, Mississippi Emergency Management Agency
State Auditor, Mississippi

Subgrantee
Grants and Projects Manager, City of Gautier

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                                10                        DA-13-17

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
